March 31, 1999

M. RICHARD PORRAS
CHIEF FINANCIAL OFFICER AND SENIOR VICE PRESIDENT

RUDOLPH K. UMSCHEID
VICE PRESIDENT, FACILITIES

A. KEITH STRANGE
VICE PRESIDENT, PURCHASING AND MATERIALS

ROBERT T. DAVIS
VICE PRESIDENT, SOUTHEAST AREA OPERATIONS

PATRICIA M. GIBERT
VICE PRESIDENT, RETAIL

SUBJECT:	 Review of the Atlanta Olympic Facility Improvement Plan Audit Report
          Number FA-AR-99-001

This report presents the results of our review of the Atlanta Olympic Facility
Improvement Plan. In January 1998, Congressman John M. McHugh, Chairman,
Subcommittee on the Postal Service Committee on Government Reform and Oversight,
requested OIG review the circumstances surrounding the termination of the Atlanta
Federal Center Post Office construction project. During that review, OIG became aware
that the Federal Center Post Office project was part of the larger Improvement Plan
initiative. This audit addressed the entire Improvement Plan.

The audit disclosed that the Improvement Plan did not receive approval and oversight at
the appropriate level and that approved deviations were costly to the USPS.
Management agreed with 10 of the 13 recommendations and has planned or
implemented actions that are responsive to the respective audit recommendations. For
the three recommendations where management did not agree, we either revised the
recommendations based the concerns management raised, or addressed the issues
further in our evaluation of management comments.

The courtesy and cooperation shown the auditors by your staff is appreciated. If you
have any questions, please have your staff contact me or Richard Chambers, Deputy
Assistant Inspector General for Performance, at (703) 248-2300.


   //Signed//
Sylvia L. Owens
Assistant Inspector General for
  Revenue/Cost Containment
Atlanta Olympic Facility Improvement Plan                  FA-AR-99-001


Attachment

cc:




                                             2
                                  Restricted Information
Atlanta Olympic Facility Improvement Plan                  FA-AR-99-001


                             TABLE OF CONTENTS
                                                            Page

Executive Summary                                              1

Introduction                                                   7

   Program Cost Growth                                        9

   Contract, Project, and Modification Costs                 12 

   Lease Agreements                                          16 

   Contractor Selection Process                              20 


Contributors                                                 23 


Appendixes
   Appendix A                                                25 

   Appendix B                                                28 

   Appendix C                                                30 

   Appendix D                                                33 

   Appendix E                                                36 





                                             3
                                  Restricted Information
Atlanta Olympic Facility Improvement Plan                                                     FA-AR-99-001


                                       EXECUTIVE SUMMARY
Introduction 	                  The Atlanta Olympic Facility Improvement Plan
                                (Improvement Plan) was designed to implement a unique
                                program to provide a positive image for the United States
                                Postal Service (USPS), ensure efficient and responsive
                                customer service, and meet revenue projections for the
                                1996 Summer Olympics in Atlanta. To implement the plan,
                                USPS officials established two dedicated teams, one to
                                initiate facility improvements and a second to manage other
                                aspects of the Olympic program. In January 1995, the
                                Improvement Plan consisted of 34 projects with an
                                estimated cost of $14.6 million. The final program consisted
                                of 42 projects1 costing approximately $24 million.2

Results in Brief	               In January 1998, Congressman John M. McHugh,
                                Chairman, Subcommittee on the Postal Service Committee
                                on Government Reform and Oversight, requested that the
                                Office of Inspector General (OIG) review the circumstances
                                surrounding the termination of the Atlanta Federal Center
                                Post Office construction project. During that review, OIG
                                became aware that the Federal Center Post Office project
                                was part of the larger Improvement Plan initiative. This
                                audit is a review of the entire Improvement Plan. The
                                objectives of the audit were to evaluate whether USPS
                                officials who developed and implemented the Improvement
                                Plan:

                                •	 received appropriate approval and oversight;
                                •	 adequately developed and included cost controls over
                                   contracts, projects, and modifications;
                                •	 ensured that leased space requirements and leases
                                   were negotiated in the best interest of the USPS; and
                                •	 used efficient contracting practices and followed USPS
                                   policies and procedures for contractor selection.




1
  This includes the Phoenix station project that was the replacement for the Federal Center Project.
2
 This cost does not include the approximately $5 million spent for Olympic activities other than facility
improvements or an additional $1 million in custodial costs.

                                                     1
                                          Restricted Information
Atlanta Olympic Facility Improvement Plan	                                     FA-AR-99-001



Management                  Overall, USPS officials who developed and implemented the
Accomplishments             Improvement Plan met their objectives. Specifically,
                            officials:

                            •	 leased or renegotiated leases for 20 facilities, and
                               assembled, awarded, and managed numerous
                               contracts during a time of high construction/labor
                               demand in the Atlanta area; and

                            •	 completed 39 of the 42 projects in time for the 1996
                               Summer Olympic Games.

                            Because the Improvement Plan was such a comprehensive
                            initiative, officials used a dedicated team concept
                            specifically designed to coordinate facility improvements in
                            time for the Olympic Games. This concept, or certain
                            aspects of it, could be employed USPS-wide on other
                            special projects of this nature, such as the 2002 Winter
                            Olympics in Salt Lake City.


Areas for 	                 Although USPS officials met their overall objectives, we
Improvement	                noted several areas where development and execution of
                            the Improvement Plan could have been improved.
                            Specifically:

                                •	 the Improvement Plan did not receive approval and
                                   oversight at the appropriate level. As a result,
                                   appropriate officials did not approve the project, and
                                   were not aware of subsequent changes in scope
                                   and project criteria. These changes contributed to
                                   an increase in cost of at least $9 million (62%) over
                                   original projections;

                                •	 USPS policies and procedures for construction and
                                   renovation projects, as well as for leasing new
                                   facilities allow for deviations when warranted under
                                   certain conditions. As a result of time constraints
                                   and other factors, officials authorized deviations
                                   from policies and procedures for some Improvement
                                   Plan projects. These deviations resulted in over
                                   $5.6 million in additional costs. However, prompt
                                   action can reduce this cost by at least $1.5 million;
                                   and



                                                2
                                     Restricted Information
Atlanta Olympic Facility Improvement Plan	                                     FA-AR-99-001


                                •	 management used indefinite quantity contractors for
                                   the majority of the Improvement Plan work.
                                   Although this reduced the contracting cycle
                                   considerably, this approach, along with the
                                   compressed time schedule, increased contracting
                                   costs more than 40%. Additionally, acceptance of
                                   modifications to offers submitted after the time of
                                   receipt of proposals, though allowed by USPS
                                   policies and procedures, was not always in USPS’
                                   best interest, and USPS guidance was not available
                                   in another instance.

Recommendations 	           As a result of the audit, the following recommendations are
                            made:

                            1.	 Seek clarification from the Board of Governors on
                                applicability of unitary plan approval for unique plans
                                such as the Improvement Plan.

                            2.	 Ensure that future projects, such as the facilities
                                improvement plan for the 2002 Winter Olympics in Salt
                                Lake City are approved in accordance with Board of
                                Governors’ guidance.

                            3.	 Ensure that facility renovation and construction projects
                                are planned in time to preclude unnecessary
                                expenditures.

                            4.	 Ensure that facility renovation and construction projects
                                are validated in terms of need, cost effectiveness,
                                operational feasibility, and space requirements in
                                accordance with USPS policies and procedures.

                            5.	 Ensure that facility renovation and construction projects
                                are completed in accordance with USPS policies and
                                procedures except when officials document exceptions
                                as being in the best interest of the USPS.

                            6.	 Thoroughly inspect and monitor facilities to ensure that
                                safety and environmental requirements are met prior to
                                leasing and occupying facilities.

                            7.	 Require the lessor to abate remaining asbestos in the
                                Alps Road Facility.



                                                3
                                     Restricted Information
Atlanta Olympic Facility Improvement Plan	                                    FA-AR-99-001


                            8.	 When no offer meets advertised space requirements,
                                and less desirable space must be accepted, every
                                effort should be made to reach potential offerors who
                                did not respond to the initial advertisement.

                            9.	 Determine the feasibility of subletting the 20,000
                                square feet of excess space at the Alps Road Facility.
                                This would offset the annual lease costs by at least
                                $150,000 annually or $1.5 million over the remaining
                                lease period.

                            10. Ensure installation of necessary security cameras in
                                the carrier area at the Alps Road Facility.

                            11. Be more prudent in using indefinite quantity contractors
                                for purposes beyond the original intent.

                            12. When accepting modifications to proposals, document
                                the rationale for determining the modification is in
                                USPS’ best interest.

                            13. Establish guidance for documenting the propriety and
                                responsibilities for offerors responding as joint
                                ventures.

Summary of                  OIG received comments from several USPS officials in
Management                  response to the draft report. Overall, officials agreed with
Comments                    10 of 13 recommendations in the report and disagreed with
                            the remaining three. The responses from these officials are
                            summarized below. The responses to specific
                            recommendations are summarized in the corresponding
                            sections of the report, and management’s replies to the
                            OIG, in their entirety, are appendixes to this report.

Chief Financial Officer     The Chief Financial Officer and Senior Vice President did
and Senior Vice             not agree with recommendation 1 and indicated clarification
President                   of the unitary plan concept is not needed. He believed the
                            Improvement Plan was not a unitary plan requiring the
                            Board of Governors’ approval because he believed it lacked
                            a revenue objective expected in a unitary plan. He agreed
                            with recommendation 2. (The full text of the response is
                            provided at Appendix A.)

Manager, Retail             The Manager of Retail Operations Support responded on
Operations Support          behalf of the Vice President, Retail, and concurred with
                            recommendations 3, 4, and 5. He agreed to better

                                                4
                                     Restricted Information
Atlanta Olympic Facility Improvement Plan                                     FA-AR-99-001


                           Coordinate with USPS Facilities and area retail operations
                           on issues raised in our report. (The full text of the response
                           is provided at Appendix B.)

Vice President,            The Vice President, Facilities, agreed with
Facilities                 recommendations 6 and 7, but believed recommendations
                           8, 11, and 12 were too restrictive. In addition, his response
                           indicated that Facilities officials do not believe the audit
                           reflects the environment in which they were operating—“a
                           shortened time frame and a very challenging construction
                           climate…” The Vice President, Facilities also did not agree
                           with OIG’s conclusion that his staff’s methods resulted in
                           over $5.6 million in additional costs and that the use of
                           indefinite quantity contractors increased contracting costs
                           by more than 40%. (The full text of the response is
                           provided at Appendix C.)

Vice President,            The Vice President, Southeast Area Operations, agreed
Southeast Area             with recommendations 9 and 10, but was skeptical of the
Operations                 potential savings from subletting excess space at the Alps
                           Road facility. (The full text of the response is provided at
                           Appendix D.)

Vice President,            The Vice President, Purchasing and Materials, agreed to
Purchasing and             forward recommendation 13 to USPS Policies and Legal for
Materials                  review. (The full text of the response is provided at
                           Appendix E.)

Evaluation of              Management officials generally addressed the issues raised
Management’s               in this report. However, we do not agree with their
Comments                   responses related to the unitary plan, the costs associated
                           with the construction climate, the shortened construction
                           time frame, and the use of indefinite quantity contractors.

                           The shortened time frame and the construction climate are
                           the core issues in this report. Specifically, we believe that
                           officials placed too much emphasis on renovating and
                           upgrading facilities prior to the opening of the 1996
                           Olympics, especially given the high cost construction
                           environment. As the report indicates, numerous problems
                           emerged because management expedited construction
                           under the environments stated above. Management had six
                           years to plan for the Olympics, but did not initiate the
                           Improvement Plan until approximately 22 months prior to
                           the Olympic Games.


                                               5
                                    Restricted Information
Atlanta Olympic Facility Improvement Plan                                    FA-AR-99-001




                           We agree that some situations require expeditious action
                           and, perhaps, deviations from policies and procedures, i.e.
                           emergency, health, safety, etc. However, meeting the
                           Olympics opening date was, in our opinion, not such a
                           situation.

                           In regard to the OIG’s analysis of the increased cost
                           associated with using indefinite quantity contractors, it was
                           not, as contended by management, based on a single
                           project. To the contrary, we based this analysis on the cost
                           of the approximately 35 Improvement Plan projects where
                           the USPS used an indefinite quantity contractor. We
                           compared the cost of these projects to similar indefinite
                           quantity contract projects in a normal (less challenging)
                           construction environment for a higher cost construction area
                           and with the cost for work accomplished using standard
                           contracting procedures.

                           The analysis showed that the USPS paid at least 40% more
                           than normal because of the construction environment and
                           the expedited construction time frame. In fact, local USPS
                           officials’ own documentation indicated the cost was at least
                           30% higher because of the Olympic construction
                           environment.




                                               6
                                    Restricted Information
Atlanta Olympic Facility Improvement Plan                                                     FA-AR-99-001


                                            INTRODUCTION
                                In April 1994, local USPS officials in Atlanta proposed to
                                spend approximately $6 million to provide a positive
                                image and ensure efficient service during the 1996
                                Summer Olympic Games in Atlanta. By January 1995,
                                the program cost projections had increased to
                                approximately $14.6 million to upgrade or improve 34
                                facilities. A dedicated team was established to manage
                                the facility improvement program. The final program had
                                an estimated cost of at least $24 million3 and consisted
                                of at least 42 projects.4

Objectives                      In January 1998, Congressman McHugh requested that the
                                OIG review the circumstances surrounding the termination
                                of the Atlanta Federal Center Post Office construction
                                project. During that review, OIG became aware of the fact
                                that the Federal Center Post Office project was part of the
                                larger Improvement Plan initiative. This audit is a review of
                                the entire Improvement Plan. The objectives of the audit
                                were to evaluate whether USPS officials who developed
                                and implemented the Improvement Plan:

                                •	 received appropriate approval and oversight;

                                •	 adequately developed and included cost controls over
                                   contracts, projects, and modifications;

                                •	 ensured that leased space requirements and leases
                                   were negotiated in the best interest of the USPS; and

                                •	 used efficient contracting practices and followed USPS
                                   policies and procedures for contractor selection.

Scope and 	                     To accomplish our objectives, we reviewed selected
Methodology	                    planning, and cost data from April 1994 to June 1998. We
                                reviewed construction and renovation cost data for 42
                                projects. We evaluated contracts and lease agreements,
                                Decision Analysis Reports, Justifications of Expenditure
                                documents, and other pertinent project costs and planning
                                data. We judgmentally selected 14 projects5 to evaluate the

3
  Management could not provide an accurate cost for the program.
4
  Depending on the documentation, the number of projects included in the Improvement Plan, including
the Phoenix station project that replaced the Federal Center Project, varied from 42 to 43 projects.
5
  The Phoenix Station was not part of our original review. We included it as part of the cost effect of the
program.

                                                     7
                                          Restricted Information
Atlanta Olympic Facility Improvement Plan                                  FA-AR-99-001


                           effect of contract modifications, the contracting process,
                           lease agreements, and other policy issues. We toured
                           selected locations that were completed or still under
                           construction. This audit was accomplished in accordance
                           with generally accepted government auditing standards and
                           included such tests of management controls as deemed
                           necessary under the circumstances. Audit fieldwork was
                           accomplished between February and August 1998.




                                               8
                                    Restricted Information
Atlanta Olympic Facility Improvement Plan	                                                     FA-AR-99-001


                                    PROGRAM COST GROWTH
Background 	                    At the request of the Vice President, Southeast Area
                                Operations, Headquarters USPS officials approved the
                                Improvement Plan concept in 1994. The Vice President,
                                Facilities concurred in November 1994 with specific scope
                                and criteria for the Improvement Plan, but advised
                                requesting officials that the compressed timeline would
                                result in a higher cost. At that time, two-thirds of the
                                projects were to be lobby/facility upgrades and the
                                remaining third were slated to be new or replacement
                                facilities.6

                                To accomplish the program prior to the 1996 Olympics and
                                to meet other facility improvement goals, USPS
                                Headquarters Facilities agreed: (1) no new construction
                                would be undertaken, since leasing would be more
                                expedient; (2) Improvement Plan projects would be located
                                in close proximity to Olympic venues and designated public
                                service areas; and (3) to waive the requirement to publicly
                                advertise for locations.

                                In January 1995, the former Atlanta District Manager
                                requested $14.6 million for 34 projects included in the
                                Improvement Plan. Since the goal was to complete the
                                facilities by July 1996, management compressed the
                                facilities into one comprehensive capital investment plan
                                with its own budget, funding, and management. The plan
                                projected revenues of at least $20 million during the
                                Olympics. The final program consisted of 42 projects
                                costing approximately $24 million.

Results 	                       Construction projects costing $10 million or more must have
                                USPS Board of Governors’ approval. Also, the Board of
                                Governors’ by-laws state that “All such projects and
                                agreements undertaken as part of a unitary plan (either for
                                contemporaneous or sequential development in one of
                                several locations) shall be considered one project or
                                agreement…”




6
  These numbers are based on 34 facilities and a letter to the Vice President, Facilities, indicating that two
thirds of the projects would be lobby/facility upgrades and the remainder new or replacement facilities.

                                                     9
                                          Restricted Information
Atlanta Olympic Facility Improvement Plan	                                                  FA-AR-99-001


BOG Approval and 	             Even though the Improvement Plan exceeded the $10
Oversight	                     million Board of Governors’ approval threshold, USPS
                               officials did not submit it to the Board of Governors for
                               approval.7 This occurred because USPS Headquarters and
                               local officials decided that the unitary plan criteria did not
                               apply. In their opinion, the projects were already in the
                               Atlanta facility improvement plan for completion after the
                               Olympics, and the Improvement Plan merely compressed
                               the projects into a single initiative. Regardless of whether
                               the projects were already planned, when officials
                               consolidated projects into a single plan for simultaneous
                               completion, the criteria for “contemporaneous or sequential
                               development in one of several locations” became
                               applicable. Because the Board of Governors did not
                               approve the original project or subsequent changes in
                               scope and project criteria, the Board of Governors did not
                               have input or control over changes and were unaware of the
                               $9 million (62%) increase in costs over original projections.

                               Headquarters USPS officials also told us that they viewed
                               the guidance on unitary plans as unclear. While we believe
                               the guidance is clear enough to have included the
                               Improvement Plan, clarification of this issue would ensure
                               future projects of this nature receive appropriate oversight.
                               One such project is the facility improvement plan for the
                               2002 Winter Olympics in Salt Lake City.


Recommendations 	              The Chief Financial Officer and Senior Vice President
                               should:

                                    1. Seek clarification from the Board of Governors on
                                       applicability of unitary plan approval for unique plans
                                       such as the Improvement Plan.

                                    2.	 Ensure that future projects, such as the facility
                                        improvement plan for the 2002 Winter Olympics in
                                        Salt Lake City, are approved in accordance with
                                        Board of Governors’ guidance.




7
  In a May 1995 Financial Issues Update letter, Headquarters USPS officials informed the Board of
Governors’ Audit Committee that “43 separate projects costing $15.8 million” would be completed in the
Atlanta area during FYs 1995 and 1996 to take advantage of the projected increased retail activity during
the 1996 Olympics.

                                                   10
                                         Restricted Information
Atlanta Olympic Facility Improvement Plan                                      FA-AR-99-001



Management                 The Chief Financial Officer and Senior Vice President did
Comments                   not agree that clarification on applicability of the unitary
                           plan is needed. The Improvement Plan was not a “unitary
                           plan” requiring the Board of Governors’ approval because it
                           lacked a revenue objective expected in a unitary plan. With
                           respect to recommendation 2, he agreed that USPS will
                           follow the guidance provided by the Capital Projects
                           Committee and the Board of Governors for future projects.
                           It will also seek approval of both entities in accordance with
                           established procedures.


Evaluation of              We believe that the Improvement Plan was a unitary plan
Management                 because it had a corporate objective to improve the net
Comments                   income of the USPS. The project’s December 1994
                           Strategic Plan (revised) projected revenues of $20 million.
                           Further, a system to track revenues was completed in
                           January 1996. We found the comments responsive to
                           recommendation 2.




                                              11
                                    Restricted Information
Atlanta Olympic Facility Improvement Plan                                          FA-AR-99-001


                 CONTRACT, PROJECT, AND MODIFICATION COSTS
Background                 To complete the Improvement Plan in time for the 1996
                           Summer Olympics, officials awarded over 40 contracts.
                           Eight were solicited contracts and the others were
                           accomplished using indefinite quantity contractors. USPS
                           officials used indefinite quantity contractors because they
                           required less time to commence work on individual projects
                           once they were under contract. To further ensure
                           completion of the projects in time for the Olympics,
                           management required contractors to complete work in 90 to
                           120 days instead of the average 180 to 240 days.

                           USPS investment policies and procedures are designed to
                           improve the efficiency and cost effectiveness of operations
                           while maintaining acceptable levels of service to postal
                           customers. As part of a prudent business strategy,
                           management should use these policies and procedures to
                           arrive at solutions that will increase efficiency or cost
                           effectiveness of operations. Management should plan and
                           justify projects by performing cost analyses, validating
                           assumptions, and assessing operational feasibility.

Planning and               Because the USPS did not launch the Improvement Plan
Executing the Olympic      early enough, time was not available to adequately plan
Facility Plan              facility improvements. Specifically, officials did not always:

                               •   validate or justify costs, or operational feasibility;
                               •   adequately identify requirements; and
                               •   control scope and criteria changes.

                           As a result of time constraints and other factors, officials
                           authorized deviations from policies and procedures for
                           some Improvement Plan projects. These deviations
                           resulted in an additional $5.6 million in costs.

Planning                   USPS officials were aware that Atlanta would be hosting the
                           Olympics for almost 6 years prior to the event. However,
                           planning for USPS facility improvements did not begin until
                           approximately 22 months before the Olympics. To
                           compensate for the short time frame, and the demand for
                           construction resources in the Atlanta area, management
                           expedited the construction schedule and paid indefinite
                           quantity contractors up to 42% more than the USPS would
                           have through a competitive solicitation process.



                                              12
                                    Restricted Information
Atlanta Olympic Facility Improvement Plan                                              FA-AR-99-001


                             This condition occurred because USPS officials did not
                             make a timely decision to implement the plan. Once the
                             plan was approved, USPS officials have indicated that
                             completing the projects prior to the Olympics was viewed as
                             more important than costs. As a result, the USPS spent at
                             least $2.4 million more than would have normally been paid
                             to indefinite quantity contractors.

Investment Policies          Officials also did not follow USPS policies and procedures
and Procedures               for investing in construction and renovation projects.
                             Specifically, officials did not prepare documentation8
                             needed to justify and validate costs when warranted. For
                             example, officials decided to relocate the downtown Atlanta
                             Station9 to the new Atlanta Federal Center as part of the
                             Improvement Plan. If required documentation had been
                             prepared, it would have reflected that the move was neither
                             feasible nor cost effective and was contrary to Improvement
                             Plan criteria. As a result of not following USPS investment
                             policies and procedures, officials expended over $3.2 million
                             more than necessary.

Requirements                 Officials did not effectively identify renovation and
                             construction requirements prior to award of contracts.
                             Specifically, officials waived requirements to complete
                             design reviews before beginning work and, therefore, did
                             not ensure all requirements were included in the contract.
                             For example, of the 14 cases we reviewed, three were
                             modified to include equipment necessary to load and unload
                             mail at the facility docks and two others were modified to
                             include the Inspection Service’s security requirements. As a
                             result, contract modifications exceeded the 10% industry
                             norm in all but two of the 14 projects we examined.10

Scope and Criteria           USPS officials modified the criteria and scope for projects
Changes                      comprising the Improvement Plan throughout execution. To
                             illustrate, in the original plan, about two-thirds of the
                             renovation/construction projects were lobby/facility
                             upgrades and the remaining third were to be new or
                             replacement postal stores. However, during execution, the
                             majority of the projects became postal stores rather than
                             lobby upgrades. Expanding the list of projects and
                             changing the scope of individual projects were costly. In

8
  This project should have had a Decision Analysis Report that would have addressed those issues. 

9
  This was the station located at 101 Marietta Street. 

10
   Contract modifications ranged from 5%-49% over contract cost and averaged approximately 21% over

original contract amount. 


                                                 13
                                       Restricted Information
Atlanta Olympic Facility Improvement Plan	                                       FA-AR-99-001


                            reviewing four postal store projects originally slated as lobby
                            upgrades, we noted that costs increased by $2 million
                            (513%) over original projections for these projects.

                            The original plan also mandated that projects would be
                            those “either located near Olympic venues, or in high traffic
                            and high revenue areas.” However, no specific criteria were
                            formulated to ensure that guideline was achieved. As a
                            result, facilities were upgraded throughout the metropolitan
                            area and, in some instances, without regard to proximity to
                            Olympic venues. For example, the downtown station was
                            relocated as part of the Improvement Plan to a site farther
                            away from the primary Olympic venues than its original
                            location.

Recommendations 	           The Vice President, Retail Operations, in coordination with
                            Marketing and Facilities officials, should ensure that facility
                            renovation and construction projects are:

                                3. Planned in time to preclude unnecessary
                                   expenditures.

                                4. Validated in terms of need, cost effectiveness,
                                   operating feasibility, and space requirements in
                                   accordance with USPS policies and procedures.

                                5. Completed in accordance with USPS policies and
                                   procedures except when officials document
                                   exceptions as being in the best interest of the USPS.

Management                  Management comments reflect a range of views on our
Comments                    findings and recommendations. The Vice President for
                            Facilities did not agree that USPS methods resulted in over
                            $5.6 million in additional costs associated with policy
                            deviations and the use of indefinite quantity contractors. On
                            the other hand, the Manager, Retail Operations Support,
                            agreed with our recommendations, and agreed to do the
                            following:

                            Recommendation 3. Coordinate with area and local retail
                            facilities on major, unique projects to ensure requirements
                            are defined and sufficient lead-time exists. With the
                            upcoming Salt Lake City Olympics, he will work with the
                            Western Area to ensure that lead times are met.



                                               14
                                     Restricted Information
Atlanta Olympic Facility Improvement Plan	                                      FA-AR-99-001


                            Recommendation 4. Continue to work closely with
                            Facilities to ensure the best possible cost in terms of space
                            and material. As Headquarters Retail becomes aware of
                            activities such as these unique projects, it will immediately
                            coordinate with Facilities.

                            Recommendation 5. Coordinate with Facilities and the
                            area retail function to assist in ensuring adherence to plans
                            and exceptions that are in the best interest of the USPS.

Evaluation of               Our estimate of $5.6 million is an accurate representation of
Management                  additional project costs resulting from deviations from
Comments                    policies and the use of indefinite quantity contractors. This
                            estimate is comprised of:

                               •	 $2.4 million for indefinite quantity contractors,

                               •	 $1.5 million for excess space, and

                               •	 $1.7 million for the Atlanta Federal Center/Phoenix
                                  Station

                            The Manager, Retail Operations Support, has planned
                            appropriate action in response to our recommendations.




                                               15
                                     Restricted Information
Atlanta Olympic Facility Improvement Plan                                           FA-AR-99-001


                                        LEASE AGREEMENTS
Background 	                     To complete the Improvement Plan prior to the start of the
                                 Olympic Games, officials elected to lease facilities rather
                                 than pursue new construction. USPS guidance requires
                                 that leased facilities must be in the best interest of the
                                 USPS. Alternatives must be evaluated to confirm that
                                 leasing is the best means of satisfying USPS needs. Prior
                                 to awarding a lease, officials must advertise requirements
                                 for leased space and specify the amount of space being
                                 sought within a designated geographic area.11

                                 Under normal circumstances, the USPS guidance requires
                                 the lessor to pay for asbestos removal/containment and for
                                 maintaining or replacing major mechanical or structural
                                 elements such as roofs. When seeking a freestanding
                                 building of more than 8,500 square feet, USPS real estate
                                 personnel must attempt to negotiate an option to purchase.

Results 	                        Leased space was not always negotiated in the USPS best
                                 interest and did not always meet safety, security, and space
                                 requirements. This condition occurred because officials did
                                 not follow USPS policies and procedures.

Safety and Security	             In one facility, testing for asbestos-containing material was
                                 not accomplished prior to lease signing and building
                                 occupancy. Following occupancy, the lessor paid to have
                                 the asbestos abated. However, USPS real estate officials
                                 did not monitor to ensure complete removal or containment
                                 of the asbestos, and did not thoroughly inspect the facility
                                 following abatement. Some non-friable asbestos remains
                                 and could become a USPS liability if USPS decides to
                                 renovate the space. This facility also did not have required
                                 security cameras in the mail carrier area. The current
                                 estimated cost for these cameras is approximately
                                 $200,000.

Space Requirements 	             Several locations either contained more space than needed
                                 or not enough. For example, the new Phoenix Station
                                 contains only 8,600 square feet, though 13,000 square feet
                                 was the stated requirement in the USPS advertisement. On
                                 the other hand, at least three locations with considerably
                                 less volume and operations than the Phoenix Station
                                 contained more space. These conditions existed because
                                 space requirements were based on what was currently
11
     Exceptions are authorized if an emergency exists.

                                                     16
                                           Restricted Information
Atlanta Olympic Facility Improvement Plan	                                              FA-AR-99-001


                              being utilized or available, instead of on a range of minimum
                              to optimum. To illustrate, the advertisement for the Phoenix
                              Station requested 13,000 square feet, therefore, other
                              potential lessors with less than 13,000 square feet, but more
                              than 8,600 square feet,12 would not have responded.

                              Although management received an excellent cost per
                              square foot for another location, (Alps Road) the lease was
                              for more space than needed. This condition occurred
                              because the real estate official considered the acquisition a
                              bargain and believed the excess space could be used for
                              training. However, Atlanta District officials did not have any
                              plans to use the excess space for training. Therefore, this
                              space (approximately 20,000 square feet) could be sublet
                              and thereby reduce USPS costs by $1.5 million over the
                              next 10 years.

Recommendations 	             The Vice President, Facilities should require that Real
                              Estate and other personnel involved in special facility
                              projects follow USPS procedures for leasing facilities.
                              Specifically:

                                  6. Thoroughly inspect and monitor facilities to ensure
                                     that safety and environmental requirements are met
                                     prior to leasing and occupying facilities.

                                  7. Require the lessor to abate remaining asbestos in
                                     the Alps Road Facility.

                                  8. When no offer meets advertised space requirements
                                     and less desirable space has to be accepted, every
                                     effort should be made to reach potential offerors
                                     who did not respond to the initial advertisement.

                              The Vice President, Southeast Area Operations, should:

                                  9.	 Determine the feasibility of subletting the 20,000
                                      square feet of excess space at the Alps Road postal
                                      facility. This would offset the annual lease costs by
                                      at least $150,000 annually or $1.5 million over the
                                      remaining lease period.

                                  10. Ensure installation of necessary security at the Alps
                                      Road Post Office.
12
  The lessor’s response to the advertisement was that over 13,000 square feet was available. However,
over 5,000 square feet of that amount were later determined to be in the building’s common area.

                                                 17
                                       Restricted Information
Atlanta Olympic Facility Improvement Plan                                       FA-AR-99-001



Management                 The Vice President, Facilities, concurred with our
Comments                   recommendations and offered the following:

                           Recommendation 6. He concurred with the OIG’s
                           recommendation because it described USPS normal policy;
                           however, time constraints can alter the policy in cases
                           where the environmental issues pose no danger, i.e., the
                           Alps Road case. the decision to occupy the facility prior to
                           asbestos removal made sense since no health hazard
                           existed. Further, the recommendation only applies to one
                           facility.

                           Recommendation 7. Although unaware of any
                           environmental issues at the Alps Road facility, the owner
                           will abate any asbestos discovered.

                           Recommendation 8. OIG’s recommendation is overly
                           restrictive because advertising is only one of several
                           methods to identify space. Before moving to the Phoenix
                           Station, Facilities staff physically canvassed the preferred
                           area to determine possible vacant space, and found none
                           suitable.

                           The Vice President, Southeast Area, concurred with our
                           recommendations and offered the following:

                           Recommendation 9. He agreed to sublet excess space at
                           the Alps Road facility. However, he was skeptical of the
                           estimate of the potential cost savings to USPS from
                           subletting the space.

                           Recommendation 10. He indicated that actions were
                           being taken to implement OIG’s recommendation. The
                           Atlanta District has budgeted for a security system at the
                           Alps Road post office and will complete installation of the
                           system this fiscal year.

Evaluation of              Management comments were responsive to most of our
Management                 recommendations; however, management believed
Comments                   recommendation 8 to be too restrictive. Comments also
                           indicated skepticism of our estimate in recommendation 9 of
                           the potential sublease value of excess space at the Alps
                           Road facility. With regard to management’s comments:




                                              18
                                    Restricted Information
Atlanta Olympic Facility Improvement Plan                                      FA-AR-99-001


                           Recommendation 8. We revised our recommendation to
                           provide USPS officials more latitude in identifying space to
                           meet its requirements. While advertising may not be
                           practical in every case, we continue to believe that USPS
                           officials should make every
                           effort to contact other offerors when they are unable to
                           procure the appropriate size facility as initially advertised.

                           Recommendation 9. We believe that actions planned by
                           the Vice President, Southeast Area, to sublet the vacant
                           space at the Alps Road facility fully address our
                           recommendation. Our estimate of the potential cost savings
                           from subletting the space was based on the price per
                           square foot USPS is paying for the Alps Road facility. A
                           more precise estimate can be determined later based on a
                           market analysis of property values for that area.




                                              19
                                    Restricted Information
Atlanta Olympic Facility Improvement Plan                                             FA-AR-99-001


                               CONTRACTOR SELECTION PROCESS
Background                       Indefinite quantity contractors are normally used for repairs
                                 and alterations costing up to $250,000. As part of the
                                 Improvement Plan, Major Facilities Purchasing approved
                                 deviations to that criteria. Revised criteria allowed for
                                 expedient construction of Improvement Plan projects with
                                 an estimated construction cost of less than $500,000.
                                 These contracts were awarded through “simplified
                                 purchasing.” For Improvement Plan projects with estimated
                                 costs of construction exceeding $500,000, Major Facilities
                                 Purchasing required the Atlanta Facilities Service Office to
                                 award the contracts using the standard competitive
                                 purchasing method. Based on the final cost estimates for
                                 the Improvement Plan, the competitive purchasing
                                 requirement was applicable for eight13 Olympic Facility
                                 Projects.

Results 	                        USPS officials used indefinite quantity contractors for the
                                 majority of the renovation and construction projects.
                                 However, work accomplished by indefinite quantity
                                 contractors cost significantly more than comparable work
                                 accomplished using the solicitation process. Additionally,
                                 USPS officials accepted modifications to initial offers after
                                 proposal opening and did not require or request
                                 documentation on firms responding as a joint venture.

Indefinite Quantity              The use of indefinite quantity contractors for most of the
Contractors                      Improvement Plan allowed work to be done more
                                 expeditiously, given the time constraints, but was not cost
                                 effective. Specifically, the cost of work accomplished using
                                 indefinite quantity contractors was significantly higher than
                                 comparable work using the solicitation process. This
                                 situation existed for several reasons. First, management
                                 allowed indefinite quantity contractors to perform major
                                 renovations instead of the customary repairs and
                                 alterations. Second, the special unit price schedule
                                 developed for indefinite quantity contractors pricing by the
                                 architectural and engineering firm averaged 42% higher
                                 than competitive solicitations for the same work. Third, to
                                 encourage the indefinite quantity contractors to complete
                                 the work prior to the Olympics, management paid almost
                                 double the normal premium on indefinite quantity contracts.



13
     One project was later postponed until after the Olympics.

                                                     20
                                           Restricted Information
Atlanta Olympic Facility Improvement Plan	                                       FA-AR-99-001


Contractor Selection	      USPS officials accepted modifications to an offeror’s
                           proposals after the proposal opening. In one instance, the
                           offeror’s modification decreased the initial offer and the
                           offeror was subsequently awarded the contract since it was
                           viewed to be inthe USPS best interest. However, by the
                           end of that contract, modifications accounted for a 20%
                           increase over the original contract amount, the highest
                           among solicited contracts. The acceptance of modifications
                           from offerors after the time specified for receipt of
                           proposals, while in accordance with USPS policy, may not
                           always be in USPS best interest and could compromise the
                           integrity of the solicitation process. Not accepting proposals
                           after the proposal opening could also prevent USPS from
                           being subjected to protests or other financial liability.

                           In another instance, officials had not developed adequate
                           procedures when existing procedures did not apply.
                           Specifically, officials had not developed guidance on
                           documentation required when the offeror was a joint
                           venture. As a result, we observed that documentation did
                           not exist to show either the propriety or the responsibilities
                           of a joint venture that submitted an offer. Establishing
                           guidance for documentation required of joint ventures would
                           strengthen the USPS position in the event of a contract
                           dispute.

Recommendations 	          The Vice President, Facilities, should require that
                           contracting officials:

                               11. Be more prudent in using indefinite quantity
                                   contractors for purposes beyond the original intent.

                               12. When accepting modifications to proposals,
                                   document the rationale for determining the
                                   modification is in USPS best interest.

                           The Vice President, Purchasing and Materials, in
                           conjunction with the Vice President, Facilities, should:

                               13. Establish guidance for documenting the propriety
                                   and responsibilities for offerors responding as joint
                                   ventures.




                                               21
                                     Restricted Information
Atlanta Olympic Facility Improvement Plan	                                         FA-AR-99-001



Management                 The Vice President, Facilities, did not agree that contracting
Comments                   costs increased by more than 40% as a result of using
                           indefinite quantity contractors. He indicated that developing
                           a cost estimate based on a single project was flawed
                           because it did not reflect the dynamics of the construction
                           environment and time frames in which work had to be
                           completed. Additionally, he disagreed with
                           recommendations 11 and 12, indicating:

                           Recommendation 11. Facilities officials are permitted to
                           use alternate methods, such as indefinite quantity
                           contractors, when justified, and “the auditors do not
                           understand our policies.” The extraordinary construction
                           environment, the short time frames available to accomplish
                           renovations, and the fact that indefinite quantity contractors
                           can mobilize quickly and are flexible on project scope were
                           sufficient justification. Facilities officials want to continue to
                           have this flexibility to respond to unique situations and
                           indicated USPS would not have completed the majority of
                           the facilities in time for the Olympics had it not been for the
                           use of indefinite quantity contractors.

                           Recommendations 12. USPS policy allows for
                           modification or withdrawal of proposals before contract
                           award when it is determined to be in the best interest of the
                           USPS (significant cost, quality, or technical benefit). Each
                           late proposal must be retained in the solicitation file with a
                           statement as to whether it was considered and the rationale
                           as to why or why not. He does not believe current policy
                           compromises the integrity of the process.

                           Recommendation 13. He would forward our
                           recommendation to both Policies and Legal for review and
                           comment.

Evaluation of              Our calculation of increased contracting costs of over 40%
Management                 was based on a comprehensive analysis of contracts and
Comments                   construction costs. The methodology applied was approved
                           by our quantitative methods staff. The increase was derived
                           by comparing:

                           •	 USPS cost estimates for seven solicited contracts in the
                              Improvement Plan with the actual bid proposals obtained
                              through the solicitation; and



                                               22
                                     Restricted Information
Atlanta Olympic Facility Improvement Plan	                                       FA-AR-99-001


                           •	 multipliers in the Atlanta area (typically, an average cost
                              construction market) with the multipliers in the
                              Washington metropolitan area (a high cost construction
                              area) for the same type of work.

                           Local USPS officials acknowledge that the cost of work
                           done through indefinite quantity contractors was at least
                           30% higher because of the Olympic construction
                           environment.

                           In response to the Vice President’s comments, we revised
                           recommendations 11 and 12 to make them less restrictive.

                           In addition, we offer the following comments:

                           Recommendation 11. We believe USPS policy requires
                           managers to be prudent stewards of USPS funds. We
                           agree that the policy permits the use of deviations with
                           indefinite quantity contractors, with appropriate justification.
                           However, since the USPS was not a sponsor of the 1996
                           Olympics, completing the work in time for the Olympics at a
                           40% ($2.4 million) increase in cost was, in our opinion, not
                           appropriate justification.

                           Recommendation 12. As USPS officials acknowledge in
                           their response, appropriate documentation should be
                           maintained on file to substantiate the reasons for accepting
                           modifications. However, due to inadequate documentation,
                           we were unable to determine whether modifications to
                           proposals for the Improvement Plan were in USPS best
                           interest.

                           Recommendation 13. Management’s agreement to
                           forward recommendation 13 to USPS Policies and Legal is
                           responsive to our finding.




                                               23
                                     Restricted Information
Atlanta Olympic Facility Improvement Plan                    FA-AR-99-001




Major Contributors to
this Report



                          Other Contributors were:




                                              24
                                    Restricted Information
Atlanta Olympic Facility Improvement Plan                    FA-AR-99-001




                                              25               Appendix A
                                    Restricted Information
Atlanta Olympic Facility Improvement Plan                    FA-AR-99-001




                                              26               Appendix A
                                    Restricted Information
Atlanta Olympic Facility Improvement Plan                    FA-AR-99-001




                                              27               Appendix A
                                    Restricted Information
Atlanta Olympic Facility Improvement Plan                    FA-AR-99-001




                                              28               Appendix B
                                    Restricted Information
Atlanta Olympic Facility Improvement Plan                    FA-AR-99-001




                                              29               Appendix B
                                    Restricted Information
Atlanta Olympic Facility Improvement Plan                    FA-AR-99-001




                                              30               Appendix C
                                    Restricted Information
Atlanta Olympic Facility Improvement Plan                    FA-AR-99-001




                                              31               Appendix C
                                    Restricted Information
Atlanta Olympic Facility Improvement Plan                    FA-AR-99-001




                                              32               Appendix C
                                    Restricted Information
Atlanta Olympic Facility Improvement Plan                    FA-AR-99-001




                                              33               Appendix D
                                    Restricted Information
Atlanta Olympic Facility Improvement Plan                    FA-AR-99-001




                                              34               Appendix D
                                    Restricted Information
Atlanta Olympic Facility Improvement Plan                    FA-AR-99-001




                                              35               Appendix D
                                    Restricted Information
Atlanta Olympic Facility Improvement Plan                    FA-AR-99-001




                                              36               Appendix E
                                    Restricted Information
Atlanta Olympic Facility Improvement Plan                    FA-AR-99-001




                                              37               Appendix E
                                    Restricted Information
